No. 20-303
IN THE

SUPREME COURT OF THE UNITED STATES
_________

UNITED STATES OF AMERICA,
Petitioner,
v.
JOSÉ LUIS VAELLO-MADERO
Respondent.

_________

On Writ of Certiorari to
the United States Court of Appeals
for the First Circuit

_________

BRIEF AMICUS CURIAE FOR THE
PUERTO RICO HOUSE OF
REPRESENTATIVES IN SUPPORT OF
RESPONDENT

_________

EMIL RODRÍGUEZ ESCUDERO
JORGE MARTÍNEZ LUCIANO
Counsel of Record

ML & RE LAW FIRM
Cobian’s Plaza – Suite 404
1607 Ponce de León Ave.
San Juan, P.R. 00909
jorge@mlrelaw.com
emil@mlrelaw.com
(787) 999-2972

i
TABLE OF CONTENTS
Page
TABLE OF AUTHORITIES ..............................

ii

STATEMENT OF INTEREST OF AMICUS
CURIAE ........................................................

1

SUMMARY OF ARGUMENT ...........................

7

ARGUMENT ......................................................

10

A) SSI IS FOR INDIVIDUALS NOT FOR
GOVERNMENTS .........................................

10

B) PRECEDENTIAL
VALUE
OF
CALIFANO AND HARRIS ..........................

13

C) CONGRESSIONAL
TEXT
AND
GEOGRAPHIC DISTINCTIONS ................

18

D) NO RATIONAL BASIS EXISTS FOR
EXCLUDING
PUERTO
RICO
RESIDENTS FROM SSI BENEFITS .........

25

CONCLUSION ..................................................

29

ii
TABLE OF AUTHORITIES
Page
CASES:
Alfred L. Snapp & Son v. Puerto Rico, 458
U.S. 592 (1982) .............................................

22

Balzac v. Porto Rico, 258 U.S. 298 (1922) ........

19

Bowers v. Hardwick, 478 U.S. 186 (1986) ........

15

Califano v. Gautier Torres, 435 U.S. 1 (1978) .. passim
Clark v. Jeter, 486 U.S. 456, 461 (1988) ...........

23

Cleburne v. Cleburne Living Center, Inc.,
473 U.S. 432 (1985) ......................................

22

District of Columbia v. Carter, 409 U. S. 418
(1973) ............................................................

18

Doe v. Commonwealth Attorney for Richmond, 425 U.S. 901 (1976) ...........................

15

Downes v. Bidwell, 182 U.S. 244 (1901) ...........

18

Edelman v. Jordan, 415 U.S. 651 (1974) .........

14

Examining Bd. of Engineers, Architects &
Surveyors v. Flores De Otero, 426 U.S.
572 (1976) .....................................................

21

Fin. Oversight & Mgmt. Bd. for P.R. v. Aurelius Inv., LLC, 140 S. Ct. 1649 (2020) ......... 5, 20,
21
FOMB v. Pierluisi-Urrutia, et al., Adv. Proc.
No. 21-00072 (LTS) ......................................

5

Gamble v. United States, 139 S. Ct. 1960
(2019) ............................................................

16

Harris v. Rosario, 446 U.S. 651 (1980) ............. passim

iii
TABLE OF AUTHORITIES—Continued
Page
Janus v. AFSCME, Council 31, 138 S. Ct.
2448, 2464 (2018) .........................................

23

Lawrence v. Texas, 539 U.S. 558 (2003) ...........

15

Mathews v. Eldridge, 424 U.S. 319 (1976) .......

12

Mathews v. Lucas, 427 U. S. 495, 510 (1976) ...

25

Mulero-Rodríguez v. Ponte, Inc., 98 F.3d
670, 674-676 (1st Cir. 1996) ..........................

22

Plessy v. Ferguson, 163 U.S. 537 (1896) ...........

6

Puerto Rico v. Franklin Cal. Tax-Free Trust,
136 S. Ct. 1938, 1942 (2016) ........................

4

Puerto Rico v. Sánchez Valle, 136 S. Ct.
1863 (2016) ................................................... 19, 20
Pyler v. Doe, 457 U.S. 202, 213 (1982) ..............

21

Ramos v. Lousiana, 140 S. Ct. 1390 (2020) ......

14

Romer v. Evans, 517 U.S. 620 (1996) ...............

26

Royster Guano Co. v. Virginia, 253 U.S. 412
(1920) ............................................................

25

Scott v. Sandford, 60 U.S. 393 (1857)...............

6

Secretary of Agriculture v. Central Roig Refining Co., 338 U.S. 604 (1950) ....................

23

Swain v. Pressley, 430 U.S. 72 (1977) ..............

24

United States R. Ret. Bd. v. Fritz, 449 U.S.
166, 184 (1980) .............................................

27

iv
TABLE OF AUTHORITIES—Continued
Page
United States v. Vaello-Madero, 313 F.
Supp.3d 370 (D.P.R. 2018) ...........................

12

United States v. Vaello-Madero, 956 F.3d 12,
23-32 (1st Cir. 2020) ......................................

24

Usery v. Turner Elkhorn Mining Co., 428
U.S. 1, 14 (1976) ...........................................

15

Walter v. National Association of Radiation
Survivors, 473 U.S. 305, 333 (1985) ............

12

U.S. CONSTITUTIONAL PROVISIONS:
U.S. Const., Art. I, § 9, cl. 2...............................

24

U.S. Const., Art. II, § 2, cl. 2 .............................

21

U.S. Const., Art. IV, § 3, cl. 2 ............................ passim
U.S. Const., Fifth Amendment .........................

7

U.S. Const., Sixth Amendment .........................

19

U.S. Const., Eleventh Amendment ...................

14

U.S. Const., Thirteenth Amendment................

18

U.S. Const., Fourteenth Amendment ...............

20

PUERTO RICO CONSTITUTIONAL PROVISIONS:
Article III ...........................................................

1

STATUTES:
48 U.S.C. § 2101 ................................................

4

48 U.S.C. § 2141 ................................................

5

v
TABLE OF AUTHORITIES—Continued
Page
48 U.S.C. § 2142 ................................................

5

48 U.S.C. § 2143 ................................................

5

42 U.S.C. § 1381 ................................................

10

42 U.S.C. § 1381 ................................................

26

42 U.S.C. § 1381a .............................................. 10, 11
42 U.S.C. § 1382c(a)(1)(B)(i) ............................. 10, 11
42 U.S.C. § 1382c(e) ...........................................

11

42 U.S.C. § 2000e ...............................................

22

48 U.S.C. § 2144 ................................................

5

30 Stat. 1759 ......................................................

17

31 Stat. 77 .......................................................... 1, 17
61 Stat. 771 ........................................................

17

64 Stat. 314 ........................................................

17

64 Stat. 319 ........................................................

17

OTHER AUTHORITIES:
President Franklin Delano Roosevelt 1935
speech on occasion of the approval of the
Social Security Act
(https://www.americanrhetoric.com/speeches
/fdrsocialsecurityact.htm) ................................

2, 3

STATEMENT OF INTEREST OF AMICUS
CURIAE1
The appearing amicus curiae, the Puerto Rico
House of Representatives, is one of two legislative
bodies created by Article III of the Constitution of the
Commonwealth of Puerto Rico, composed of 51 members, 40 of whom are elected to represent representative districts with the remaining 11 being elected at
large. The House of Representatives is the oldest
democratic institution in Puerto Rico as it was created
by the 1900 Organic Act, 31 Stat. 772. This, the Nineteenth Legislative Assembly3 is the most diverse in
modern Puerto Rico history with 5 different political
parties having elected members to the House. Pursuant to Article 5.2(p) of the current House Rules (House
Resolution 161), the Speaker, Hon. Rafael HernándezMontañez, is authorized to make court appearances
on behalf of the legislative body. Because of the legal
1 Both the petitioner and the respondent have appeared
in writing to state their blanket consent to the filing of amici
memoranda in this very important litigation. Amicus hereby further certifies, as per this Honorable Court’s Rule 37.6, that no
party or counsel for a party has authored any part of the foregoing brief nor has any of the parties and/or their attorneys made
a monetary contribution to fund the filing of this brief. No person
other than the amicus or his counsel have made a monetary contribution to its preparation or submission.
2 Under this legislation the “House of Delegates”, as it
was then called, was the only government institution whose
members were selected through popular vote as all other components of the territorial government were either appointed by the
President of the United States or by the Governor.
3 Although the House has been in continuous operation
since 1900, the Number Nineteen corresponds to the 4-year
terms since the post-1952 constitutional era.

2
importance of the constitutional matters at issue in
this case and because of the real-world consequences
that the People of Puerto Rico would suffer if the discriminatory practice that the Government seeks to enforce is validated, the House feels compelled to appear
before this Honorable Court in support of the respondents.
Within the Commonwealth’s republican form of
government, it ordinarily is incumbent upon the Legislative Assembly to formulate public policy in the
best interests of its constituents. It is an important
axiom of contemporary western philosophy that the
most vulnerable citizens deserve a higher degree of
protection from the state. These citizens prominently
include those who are unable to procure a living
through their work either because of them having
reached retirement age or because of physical or mental disability. It was precisely to help such citizens
lead a dignified life that Congress enacted the Social
Security Act as the centerpiece of the New Deal reforms. In his speech on occasion of signing the bill into
law, President Roosevelt observed that:
The civilization of the past hundred
years, with its startling industrial
changes, had tended more and more to
make life insecure.
Young people have come to wonder what
will be there lot when they came to old
age.
The man with a job has wondered how
long the job would last.
This social security measure gives at
least some protection to 50 million of our

3
citizens who will reap direct benefits
through unemployment compensation,
through old-age pensions, and through
increased services for the protection of
children and the prevention of ill health.
We can never ensure 100 percent of the
population against 100 percent of the
hazards and vicissitudes of life, but we
have tried to frame a law which will give
some measure of protection to the average
citizen and to his family against the loss
of a job and against poverty-stricken old
age.4 (emphasis added)
The Government does not expressly dispute
Puerto Rican’s right to the dignity that President Roosevelt alluded to, but it seeks to deny that right all the
same by seeking to uphold Congress’ decision to discriminate against its own citizens, if they happen to
live in a territory. In an intensely ironic choice of argument, the Government posits that because “Puerto
Rico’s status as a Commonwealth affords it a great degree of autonomy and self-determination”, pursuant
to that purported authority “the territorial government is best positioned to tailor its laws and programs
to reflect ‘local conditions’.” See Brief for the Petitioner at 23-25. The House of Representatives would
love to legislate a program that provides its most vulnerable constituents with the same benefits that are
available under the Supplemental Social Security

4https://www.americanrhetoric.com/speeches/fdrso-

cialsecurityact.htm

4
Income Program (hereinafter referred to as “SSI”)5. It
however is unable to do so, not only because of the
very well-documented insolvency of the Commonwealth’s treasury but because in 2016, Congress deprived Puerto Rico of the “great degree of autonomy
and self-determination” that the Government has
strangely chosen to tout in its brief. We respectfully
believe that the Government cannot invoke Article IV
powers over the territory to deny it authority to legislate local solutions to its problems in the vast majority
of cases6 and then fallback on the existence of the very
same autonomy that it usually works so hard to negate. In fact, as we will demonstrate, the Government
argues both wide autonomy and the preeminence of
Article IV limitations in one single brief, notwithstanding the contradictory nature of those contentions.
As this Honorable Court is well aware of, the
Commonwealth’s default on its bond obligations
brought about the very unfortunate piece of legislation known as the Puerto Rico Oversight, Management and Economic Stability Act, 48 U.S.C. § 2101, et
seq. (hereinafter referred as “PROMESA”), which severely impaired the House’s ability to take care of the
People’s business, as many of the powers delegated to
Puerto Rico’s elective constitutional government have
5 This program was established through the 1972 amend-

ments to the Social Security Act, 86 Stat. 1465 (1972).
6

For example, in Puerto Rico v. Franklin Cal. Tax-Free
Trust, 136 S. Ct. 1938, 1942 (2016), the United States successfully appeared before this Honorable Court to argue that federal
law “bars Puerto Rico from enacting its own municipal bankruptcy scheme to restructure the debt of its insolvent public utilities companies”, thus having a legislated “local solution” struck.

5
now been vested on a Financial Oversight and Management Board (hereinafter referred to as “FOMB” or
“the Board”) composed of seven appointed individuals
that are not accountable to the Puerto Rican electorate7. The House of Representatives has very actively and aggressively participated in litigation concerning the scope of PROMESA in an effort to salvage
as much authority as possible from encroachment by
the Board. Under the current scheme of severely limited territorial government in Puerto Rico, even assuming that it was possible to tailor an SSI-like program for the People of Puerto Rico that is tailored to
local needs, such a program would necessarily need a
nod from the FOMB. See 48 U.S.C. § 2141-2144. It is
a safe bet that the Board, which is obsessed with imposing harsh austerity measures for everyone but itself, would never endorse such a program. Indeed, the
FOMB’s position on Puerto Ricans in their golden age
is best exemplified by their current attack on Puerto
Rico’s unanimously approved Law No. 7-2021, which
states a clear public policy against further reductions
in the benefits of government retirees8. In sum, under
PROMESA, Congress decided that an undemocratic
bureaucracy of unelected appointees was better suited
to handle the Commonwealth’s public finances and
7

For a detailed description of how this reallocation of
territorial governance conflicts with prior Congressional policy,
see Fin. Oversight & Mgmt. Bd. for P.R. v. Aurelius Inv., LLC,
140 S. Ct. 1649, 1675-1683 (2020) (Sotomayor, J. concurring).
8 We refer to the case of FOMB v. Pierluisi-Urrutia, et
al., Adv. Proc. No. 21-00072 (LTS), within the main debt restructuring case under Title III of PROMESA, Civil Case No. 17-3283
(LTS) before the U.S. District Court for the District of Puerto
Rico. Speaker Hernández-Montañez is a co-defendant in that
case, along with the President of the Senate and the Governor of
Puerto Rico.

6
therefore must now own the logical consequences of
that policy choice.
The First Circuit’s decision correctly adjudicated the controversy regarding the viability of Congress’ continued discrimination against Puerto Rico
by excluding its residents from the SSI program, even
after including another territory (the Northern Mariana Islands)9 in said program’s coverage. This decision was rendered even under the standard created by
the Court’s summary decisions in Califano v. Gautier
Torres, 435 U.S. 1 (1978) (per curiam) and Harris v.
Rosario, 446 U.S. 651 (1980) (per curiam).10 While we
respectfully believe that these decisions, along with
the whole body of jurisprudence known as the “insular
Cases” belong in the same graveyard in which decisions such as Scott v. Sandford, 60 U.S. 393 (1857)
and Plessy v. Ferguson, 163 U.S. 537 (1896) were laid
to rest, the First Circuit’s judgment should be
9

While the District of Columbia has always been considered as part of the United States for purposes of the Social Security Act, the Northern Mariana Islands were added, via amendment, in 1976, as a result of that territory’s covenant with the
United States. See 90 Stat. 263 (1976).
10

In his dissent, the great Justice, Hon. Thurgood Marshall criticized the majority’s haste to resolve the matter summarily, particularly where it relied mostly on “another summary
decision by this Court” (i.e., Califano), going on to denounce that
there was no biding legal authority supporting the conclusion
that Puerto Rico could be treated differently to the states so long
as there was a rational basis for doing so, particularly where
such discrimination affects U.S. citizens, ending by noting that
“this case raises the serious issue of the relationship of Puerto
Rico, and the United States citizens who reside there, to the Constitution” and that therefore, “[a]n issue of this magnitude deserves far more careful attention than it has received in Califano
v. Torres and in the present case”. Harris, 446 U.S. at 652-656
(Marshall, J., dissenting).

7
affirmed even if the anachronistic imperial philosophy
of the insular cases remains the Law of the Land, as
it has for over a century.
Because the First Circuit’s ruling contains the
correct assessment of how the Equal Protection
Clause bars the exclusion of Puerto Rico residents
from SSI benefits and because it cannot currently legislate to resolve the problems of those residents, the
House strongly urges the affirmance of the Court of
Appeals’ holding.
SUMMARY OF ARGUMENT
Ever since the question first came to the Court’s
attention in 1978 up until the instant case, the issue
of entitlement has been seen as one of territorial rather than individual rights, as evidenced by petitioner
framing the question as “[w]hether Congress violated
the equal-protection component of the Due Process
Clause of the Fifth Amendment by establishing Supplemental Security Income—a program that provides
benefits to needy aged, blind, and disabled individuals—in the 50 States and the District of Columbia, but
not extending it to Puerto Rico”. The fact is that SSI
benefits never go through the coffers of states or territories but rather a check is delivered straight to the
beneficiary’s mailbox, or more likely these days, a direct deposit is wired into his/her bank account. Unlike
block grants such as those under the jurisdiction of
the U.S. Department of Housing and Urban Development, SSI benefits are not granted on the basis of a
proposal submitted by a state or local government, as
eligibility is based on an individual’s specific circumstances, as disclosed to the Social Security Administration. Not only does focus on the territory instead
of the individual recipients of the injury in fact tend
to promote an analysis that is detached from the basic
human tragedy involved, but it may also result in the
application of the incorrect level of scrutiny. The
plaintiff in this case has lost SSI benefits that he was

8
receiving as a resident in one of the states, over which
this Honorable Court has recognized a property interest protected by the Due Process Clause.
On the other hand, petitioner props up the precedential value of the Califano and Harris summary
decisions. While all opinions issued by this Honorable
Court are of legal consequence, the case law recognizes that summary decisions do not carry the same
precedential weight as fully briefed cases that are argued before the Court. Here we have an important
constitutional question that involves the rights of millions of U.S. citizens and that remains unresolved four
decades after the tandem of summary opinions were
issued. Moreover, considering the First Circuit’s
thoughtful and solidly supported decisions, petitioner
relies on a number of arguments that are not even
mentioned in Califano or in Harris and are thus up
for initial consideration.
In endeavoring to compel the continued application of rational basis scrutiny in this case, the Government predictably seeks support from the “plenary
powers” doctrine championed by the discredited “Insular Cases”. While there is no doubt that Puerto
Rico’s political history markedly differs from that of
other territories (specially in relation to those acquired at the turn of the Twentieth Century) and that
it has been granted (and then deprived again) of broad
autonomy with regards to its internal affairs, it cannot be said that Congress at any time ceased to hold
plenary powers or that those powers have been diminished. Having said this, plenary powers do not create
an extra-constitutional dimension in which the rest of
the Constitution ceases to apply. Thus, the Fifth
Amendment undoubtedly limits Congress’ ability to
legislate classifications. Whether or not this case is
viewed as the deprivation of benefits over which individuals have a property interest or as a classification
affecting citizens of Puerto Rican national origin,
strict scrutiny applies. The Government cannot meet

9
the rigors of strict scrutiny and does not event try to
propose an argument that it does so. The petitioner
also seeks support on a few cases regarding Congressional authority to create classifications based on differences between geographic locations. Nothing suggests that this criterion was considered by Congress
in its decision to exclude Puerto Rico residents from
SSI benefits nor does the Government articulate any
relationship between differences in geographic locations and the challenged decision.
Finally, even if rational basis scrutiny is applied, no rational basis exists for the challenged exclusion. Petitioner does nothing to refute the First Circuit’s fact-based arguments to reject the Califano/Harris factors. Instead, the Government now
says that excluding Puerto Rico residents from SSI
advances the important interest of promoting the
Commonwealth’s self-rule and allowing that entity to
use its fiscal autonomy to appropriate funds to cover
the needs that SSI would ordinarily provide for. This
audacious proposition ignores the fact that: 1) in 2016
Congress legislated to effectively transfer financial
control from the constitutional elected government to
the FOMB; and 2) even if Puerto Rico retained the
broad authority over its finances that it enjoyed prior
to PROMESA, as the vast majority of the states, it
clearly does not have and never has had the funds required to replace SSI with a locally designed program.
Faced with the challenge presented by the inclusion of
the Northern Mariana Islands’ residents in the SSI
program, petitioner merely points to the source of that
decision (i.e., the 1976 covenant), without more. In
any event, petitioner brief fails at achieving the Government’s only goal under rational basis scrutiny,
namely: establishing a causal relationship between
the challenged classification and the goals of the legislation at issue.

10
ARGUMENT
A) SSI IS FOR INDIVIDUALS NOT FOR GOVERNMENTS

The SSI Program was created “[f]or the purpose
of establishing a national program to provide supplemental security income to individuals who have attained age 65 or are blind or disabled, there are authorized to be appropriated sums sufficient to carry
out this title”. 42 U.S.C. § 1381 (emphasis added). Rather than setting forth what a state or a territory must
do to qualify for SSI benefits, payments are based
upon an evaluation of the “income and resources” of
“aged, blind or disabled individuals”. 42 U.S.C. §
1381a (emphasis added). This notwithstanding, ever
since Califano, the legal question resolved by the
courts has been centered on whether Congress can exclude the political body (in this case, territories) from
receiving this benefit designed for individual citizens11.
The initial shift of focus from the individual to
the collective may very well stem from the fact that,
to qualify, the flesh and blood applicants must be “a
resident of the United States.
42 U.S.C. §
1382c(a)(1)(B)(i). That same statute goes on to define
the “United States” as the 50 states and the District
of Columbia. 42 U.S.C. § 1382c(e). As previously
stated, residents of the Northern Mariana Islands
also qualify as inclusion in SSI is one of the benefits
contemplated in the 1976 “Covenant to Establish a
Commonwealth of the Northern Mariana Islands in
Political Union with the United States of America”.
This notwithstanding, where a 90-year-old resident of
San Juan is denied his application to obtain SSI
11

To be sure, there are several federal programs that appropriate funds directly to state/territorial and local governments based on proposals submitted by qualifying government
entities. This has never been the case with Social Security benefits which have always been delivered directly from the U.S.
Treasury to the individual beneficiaries.

11
benefits and thus escape poverty is denied by the Social Security Administration, a discriminatory act has
been committed against that citizen, not against the
Commonwealth of Puerto Rico. Approaching this subject from the perspective of whether or not Congress
may invoke rational basis scrutiny to discriminate
against its territories with regards to the participation in federal programs is both inaccurate and dehumanizing to the actual victims of that policy, as the
real question is whether or not that least restrictive
standard justifies discrimination against individual
citizens solely on the basis of their having taken up
residence in a territory.
The very limited discussion by the Califano
Court inexplicably approached the matter as a “right
to travel” issue. Califano, 435 U.S. at 4-5. The Harris
Court relied on Califano without any further analysis.
Harris, 446 U.S. at 651-652. Just as Mr. José Luis
Vaello-Madero, the plaintiffs in both cases were individual citizens who lost federal benefits for which they
were otherwise qualified. The Commonwealth of
Puerto Rico, as that political body, was not deprived
of anything and therefore did not suffer an injury in
fact that would allow it to seek judicial redress. Focusing on the disparate treatment of the territory
however meant that the aggrieved individuals were
never able to avail themselves to this Honorable
Court’s determination that “the interest of an individual in continued receipt of these benefits is a statutorily
created ‘property’ interest protected by the Fifth
Amendment”. Mathews v. Eldridge, 424 U.S. 319, 332
(1976) (emphasis added)12; see also Walter v. National
Association of Radiation Survivors, 473 U.S. 305, 333
(1985) (noting a property interest in the continued receipt of certain benefits from the Veterans’ Administration). If the analysis is, as it should, centered on
12

This case involved the termination of respondent’s Social Security disability benefits. Id. at 321-324.

12
the individual applicant rather than on the territory
in which he or she resides, it becomes harder to dispatch the matter as just another run-of-the-mill statutory classification to be upheld against an Equal Protection Challenge.
As observed by the District Judge who originally decided this case (since appointed and confirmed
to the Court of Appeals for the First Circuit), “residents of Puerto Rico pay federal payroll taxes to finance Social Security and Medicare, equally to their
stateside brethren”. United States v. Vaello-Madero,
313 F. Supp.3d 370, 374 (D.P.R. 2018). How could this
not be about individuals, as they are the ones who
must contribute a portion of their earnings for decades
only to have full benefits conditioned upon living in a
state, the District of Columbia, or a series of small Islands in the Pacific Ocean in order to receive full benefits?
Once again, this Honorable Court has before it
a case brought by an individual who was deprived of
a constitutionally protected right to the continued receipt of federal benefits. Although the Commonwealth of Puerto Rico and its entitlement to funds has
been the focus of analysis up until this point, it is not
the real party of interest in this case, which is reflected by its appearance as amicus curiae rather than
as one of the respondents. A spade deserves to be
called a spade and this case needs to be decided exactly as what it is: an evaluation of Congress’ right to
discriminate against SSI recipients and/or applicants
based solely on their status as residents of a U.S. territory.
B) PRECEDENTIAL VALUE OF CALIFANO AND HARRIS
Beginning at page 36 of its brief, the Government demands the strict application of stare decisis
with regards to the continued precedential force of the
Califano and Harris summary opinions. As this Honorable Court recently explained:

13
Even if we accepted the premise that
Apodaca established a precedent, no one
on the Court today is prepared to say it
was rightly decided, and stare decisis
isn’t supposed to be the art of methodically ignoring what everyone knows to be
true. Of course, the precedents of this
Court warrant our deep respect as embodying the considered views of those
who have come before. But stare decisis
has never been treated as “an inexorable
command.” And the doctrine is “at its
weakest when we interpret the Constitution” because a mistaken judicial interpretation of that supreme law is often
“practically impossible” to correct
through other means. To balance these
considerations, when it revisits a precedent this Court has traditionally considered “the quality of the decision’s reasoning; its consistency with related decisions; legal developments since the decision; and reliance on the decision.” In this
case, each factor points in the same direction.
Ramos v. Lousiana, 140 S. Ct. 1390, 1404-1405 (2020)
(emphasis added)
Not all legal decisions carry equal precedential
value. The Government is not relying on widely accepted true and tried legal precent as, for example,
Miranda v. Arizona, 384 U.S. 436 (1966)), but rather
on a tandem of divided, summary opinions. In other
words, the doctrine being propped up as venerable
precedent has not even been put to the test in an oral
argument session before the Highest Court in the
Land. The Court has, in the past, recognized the

14
obvious underlying weaknesses of summarily issued
decisions.
The case of Edelman v. Jordan, 415 U.S. 651
(1974), is one of the leading cases regarding the scope
of relief that the Eleventh Amendment allows against
states sued in federal court. Referring to prior decisions in which the pertinent Eleventh Amendment
considerations were decided, the Court held that:
This case, therefore, is the first opportunity the Court has taken to fully explore and treat the Eleventh Amendment aspects of such relief in a written
opinion. Shapiro v. Thompson and these
three summary affirmances obviously
are of precedential value in support of
the contention that the Eleventh Amendment does not bar the relief awarded by
the District Court in this case. Equally
obviously, they are not of the same precedential value as would be an opinion of
this Court treating the question on the
merits. Since we deal with a constitutional question, we are less constrained
by the principle of stare decisis than we
are in other areas of the law. Having now
had an opportunity to more fully consider
the Eleventh Amendment issue after
briefing and argument, we disapprove
the Eleventh Amendment holdings of
those cases to the extent that they are inconsistent with our holding today.
Id. at 670-671 (emphasis added)13
13 See

also Usery v. Turner Elkhorn Mining Co., 428 U.S.
1, 14 (1976) (“Several questions presented here - most notably
those of retroactivity and preclusion of sole reliance on X-ray testimony evidence - were raised and decided in National Independent Coal Operators Assn. v. Brennan, but having heard oral

15
Later, in Bowers v. Hardwick, 478 U.S. 186, 189
n. 4 (1986), the Court refused to rely on its summary
affirmance in Doe v. Commonwealth Attorney for
Richmond, 425 U.S. 901 (1976)14, preferring to make
an independent, more carefully reasoned decision after allowing briefing and hearing oral argument.
Not only are Califano and Harris weakened by
their summary nature but neither of those cases contain any language supporting what seems to the Government’s main thesis. At pages 28-34, the United
States makes the argument that the constitutional
text itself and Congressional authority to draw geographic distinctions support the Califano/Harris rational basis scrutiny theory. Of course, these per curiam majority opinions do not mention any of these
concepts. They instead merely apply rational basis
scrutiny on the basis of the general presumption of
constitutionality enjoyed by all legislative enactments, as well as a generalized assertion of Congressional authority under U.S. Const., Art. IV, § 3, cl. 2.
Califano, 435 U.S. at 5; Harris, 446 U.S. at 651-652.
If the Government wishes for this Honorable Court to
validate its constitutional text/geographic distinctions
theory, it must do it the hard way by persuading a majority of the Court without any prior precedential support or at least, not by relying on the very discrete
summary dispositions in Califano and Harris.
We urge this Honorable Court to follow Justice
Thomas’ sound advice to eschew a view of stare decisis
that “elevates demonstrably erroneous decisions—
meaning decisions outside the realm of permissible interpretation—over the text of the Constitution and
argument and entertained full briefing on these issues together
with the other questions raised in the case, we proceed to treat
them here more fully”) (emphasis added).
14

Needless to say, Bowers was overruled on other
grounds in the Court’s landmark decision of Lawrence v. Texas,
539 U.S. 558 (2003).

16
other duly enacted federal law”, and thus reject the
Government’s invitation to give “the veneer of respectability to our continued application of demonstrably
incorrect precedents”. Gamble v. United States, 139
S. Ct. 1960, 1981 (2019) (Thomas, J., concurring).
In sum, Califano and Harris stand on very
shaky grounds and there is good reason for overturning them. More importantly, the arguments brought
forth by the petitioner to support the application of rational basis scrutiny demanded by these cases is not
so much as mentioned in those decisions and thus constitute a matter of first impression not the revisitation
of a previously decided matter.
C)
CONGRESSIONAL
TEXT
AND
GEOGRAPHIC
DISTINCTIONS

At the time when Puerto Rico was invaded by
U.S. troops in 1898, as part of the Spanish-American
War, the residents of that Spanish colony had developed a national identity and a desire for self-rule that
had resulted in the birth of pro-autonomy political
movements and prompted Spain to issue a Declaration of Autonomy for Puerto Rico through a royal decree signed on December 1897. The Treaty of Paris
ended the war on December 10, 1898, (30 Stat. 1759
(1989)), whereupon Puerto Rico went from an autonomous Spanish province to a territory under Congress’
broad authority under the provisions of the U.S.
Const., Art. IV, § 3, cl. 2. After two years of ineffectual
military rule, Congress began exercising its Article IV
authority to incrementally empower Puerto Ricans
with authority to decide their internal affairs, beginning with the Organic Act of 1900 (31 Stat. 77 (1900)),
which was replaced by the Organic Act of 1917 and its
grant of U.S. citizenship to those born in Puerto Rico
(64 Stat. 319 (1917)), which was amended in 1947 to
change the position of Governor from a presidential
appointee to an elective office (61 Stat. 771 (1947));
which culminated in a law allowing Puerto Rico to

17
become a constitutional regime (64 Stat. 314 (1950)).
The trend of expanding and respecting Puerto Rico’s
right to decide its internal affairs abruptly ended in
2016 with the enactment of PROMESA, which in
many respects marked a return to pre-1900 times.
While petitioner titles its argument as one that
is supported by constitutional text, what said party really does is rely on historical precedent regarding the
“plenary” nature of Congressional authority over the
territories and the distinctions between territories
and states. The fact is that the text that was written
in 1787 is quite troubling for 2021, particularly insofar as it groups territories with “other Property belonging to the United States” (emphasis added). The Thirteenth Amendment precisely sought to dispel the notion (which of course was not foreign to the Founding
Father, many of them slave owners) that people may
be deemed as property. It is also indefensible in these
modern times to read that clause as meaning that
there is no such thing as private property ownership
in the territories. While the law has greatly evolved
in those areas in which the Founders’ thinking was
not as advanced as ours (for, example, women’s’ suffrage), the so-called “Territorial Clause” retains language that reflects the accepted principle of the times
that empires expand their power through colonization. The young republic had just gained independence from the British Empire which, at the time,
maintained colonies in all continents, which explains
why its architects would follow that model15. In our
era, the evils of colonialism are well known and
15

A more contemporary point of view reads the Territorial Clause as enabling the creation of transitory systems of government to be used during the period of transitioning between
being a territory and becoming a state or otherwise being disposed of. District of Columbia v. Carter, 409 U. S. 418, 431-432
(1973) (distinguishing the District of Columbia from this general
rule of territorial existence).

18
universally condemned. Replacing the term “colony”
with “territory” is little more than using a more palatable euphemism that does not make the practice any
more acceptable. The “plenary powers” precedent
that begun with Downes v. Bidwell, 182 U.S. 244
(1901) and has come to be known as the “Insular
Cases” vests Congress with powers akin to those exercised in centuries past by the British, the French and
other European crowns. Just as importantly, these
cases are intimately related to racist16 and condescending17 beliefs which they help perpetuate.
Because of its very particular nature of having
a defined, strong national identity, the Insular Cases
16

For example, the Downes Court observed that “in the
annexation of outlying and distant possessions grave questions
will arise from differences of race, habits, laws and customs of the
people, and from differences of soil, climate and production,
which may require action on the part of Congress that would be
quitted unnecessary in the annexation of contiguous territory inhabited only by people of the same race, or by scattered bodies of
native Indians”. Downes, 182 U.S. at 282 (emphasis added).
17

We refer to language describing Puerto Rico as being
“inhabited by alien races, differing from us in religion, customs,
laws, methods of taxation and modes of thought, the administration of government and justice, according to Anglo-Saxon principles, may for a time be impossible”. Downes, 182 U.S. at 287 (emphasis added). Similarly, in denying Puerto Ricans the Sixth
Amendment right to a trial by jury, the Court remarked that the
jury system “postulates a conscious duty of participation in the
machinery of justice which it is hard for people not brought up in
fundamentally popular government at once to acquire”, thus concluding that “people like the Filipinos or the Porto [sic] Ricans,
trained to a complete judicial system which knows no juries, living in compact and ancient communities, with definitely formed
customs and political conceptions, should be permitted themselves to determine how far they wish to adopt this institution of
Anglo-Saxon origin, and when”. Balzac v. Porto Rico, 258 U.S.
298, 300 (1922).

19
notwithstanding, Puerto Rico has traditionally been
treated as a special case. This Honorable Court’s latest significant ruling on the matter was issued a few
years ago in Puerto Rico v. Sánchez Valle, 136 S. Ct.
1863 (2016). In that case, the Court upheld a finding
that the Commonwealth did not enjoy separate sovereignty for purposes of double jeopardy. Id. at 18761877. The majority opinion reiterated that Puerto
Rico’s relationship to the United States is unparalleled in American history and that “since the events of
the early 1950’s, an integral aspect of that association
has been the Commonwealth’s wide-ranging self-rule,
exercised under its own Constitution”, meaning that
“Puerto Rico today can avail itself of a wide variety of
futures”. Id. at 1877. This recognition of self-rule is
however couched in the salient fact that “the ultimate
source of Puerto Rico’s prosecutorial power is the Federal Government — because when we trace that authority all the way back, we arrive at the doorstep of
the U. S. Capitol —“. Id. (emphasis added). Puerto
Rico’s limited autonomy is presented as a Congressional grace and not as a right emanating directly
from its people. Id. at 1875-1876. In fact, on June 30,
2016, three weeks after the Sánchez Valle decision
was issued, Congress drastically reduced the scope of
Puerto Rico’s self-rule by enacting PROMESA. See
Aurelius Investment, LLC, 140 S. Ct. at 1656 (“Congress created the Board pursuant to its power under
Article IV of the Constitution to ‘make all needful
Rules and Regulations respecting the Territory . . . belonging to the United States’”).
Having provided the preceding necessary historical background, the long line of cases asserting the
“plenary” nature of Congressional authority to provide for territorial governance is not something that
the petitioner may ride all the way to its desired conclusion. For starters, as explained in the first section
of an argument, SSI does not involve a relationship
between
the
federal
government
and
its

20
state/territorial/local counterparts but rather exists in
a direct line between the U.S. Social Security Administration and individual citizens. It is axiomatic that
Fourteenth Amendment provisions, including the
right to due process and equal protection apply to
Puerto Rico. Examining Bd. of Engineers, Architects
& Surveyors v. Flores De Otero, 426 U.S. 572, 599-600
(1976). As we have explained, the plaintiff in this
case, Mr. Vaello-Madero was an SSI recipient who
was deprived of that benefit over which this Honorable Court has held that he has a property interest.
Hence, “plenary powers” are inapposite to a determination of whether or not an individual suffered a constitutional deprivation.
Even if we were to continue ignoring that this
case is about discrimination against individual, similarly-situated, American citizens, rather than about
treating a territory differently from the states and
from other territories, the “plenary powers” of Article
IV would be of little help to the Government. In the
recent Aurelius Investment, LLC litigation, both the
FOMB and the United States maintained that under
Article IV, Congress could be compelled to guarantee
fundamental rights to individuals but need not extend
what said parties referred to as “structural provisions” of the U.S. Constitution to the territories, which
included the Appointments Clause, U.S. Const., Art.
II, § 2, cl. 2. In rejecting this argument, this Honorable Court held that those structural provisions “apply
to all exercises of federal power, including those related
to Article IV entities”. Aurelius Investment, LLC, 140
S. Ct. at 1657 (emphasis added). Ample as it may be,
Congress’ authority to legislate with regards to territories does not operate in an isolated, extra-constitutional dimension that is divorced from other constitutional provisions. Legislation enacted under the Territorial Clause is defective if it contains a constitutional vice that would invalidate an enactment made
under Article I powers. This being the case, Article IV

21
does not authorize the creation of a “caste-based and
invidious class-based legislation”. Pyler v. Doe, 457
U.S. 202, 213 (1982).
Regardless of whether the challenged exclusion
from SSI benefits is viewed as being aimed at individual citizens (as we posit) or against the collective of
individuals within a territory, this Courts before it the
basic ingredients of an equal protection case namely,
the disparate treatment of similarly situated individuals (i.e., citizens or a community of citizens who paid
into Social Security and otherwise qualify for SSI).
Cleburne v. Cleburne Living Center, Inc., 473 U.S.
432, 439 (1985) (observing that the constitutional
equal protection provision “"is essentially a direction
that all persons similarly situated should be treated
alike"). The criterion upon which similarly situated
individuals receive different treatment will determine
the standard of review to be applied. To pinpoint the
cause of the challenged classification what we need to
ask is: what is it that distinguishes qualified individuals who receive SSI benefits and the plaintiff in this
case? The obvious answer is that benefits are denied
to those who have chosen to reside in Puerto Rico. By
and large, people who reside in Puerto Rico are Puerto
Rican nationals. In the case of Alfred L. Snapp & Son
v. Puerto Rico, 458 U.S. 592 (1982), the Court allowed
the Commonwealth to file a lawsuit in the exercise of
its parens patria prerogatives against several apple
growers in the state of Virginia who engaged in discrimination against Puerto Rican farm workers in violation of federal regulations requiring that preference be given to the hiring of U.S. Citizens and that
hiring decisions be made without regard to national
origin. Id. at 595-599. Being Puerto Rican has long
been considered sufficient for promoting a national
origin discrimination claim under Title VII of the Civil
Rights Act of 1964, as amended, 42 U.S.C. § 2000e, et
seq. See e.g. Mulero-Rodríguez v. Ponte, Inc., 98 F.3d
670, 674-676 (1st Cir. 1996).

22
Classifications based on national origin are
subject to the plaintiff-friendly highest tier of analysis, strict scrutiny. Clark v. Jeter, 486 U.S. 456, 461
(1988). In a nutshell under strict scrutiny, the challenged state action will be upheld only if the classification at issue was created to advance a compelling
interest of the government by employing the least restrictive means available. Janus v. AFSCME, Council
31, 138 S. Ct. 2448, 2464, 2465 (2018). Petitioner
would have no opportunity of prevailing if strict scrutiny was to be applied, as it has not even bothered to
suggest how excluding Puerto Rican nationals from
SSI benefits advances a compelling interest of the
United States and that there are no less restrictive
means to advance that compelling interest.
Moving on to the classifications based on geographic differences. For starters, the first problem
faced by this strained argument is that neither the
congressional record leading to the creation of the SSI
program, nor the program’s operating regulations nor
the record in this case even remotely suggest that geographic differences were used to determine where an
applicant needs to reside in order to qualify for benefits. The few cases invoked by the petitioner involve
legislation regarding agricultural production quotas.
For instance, in Secretary of Agriculture v. Central
Roig Refining Co., 338 U.S. 604 (1950), rather than
involving the wholesale exclusion of the citizens that
reside in a territory from a federal program, the Court
simply validated Congressional authority under the
Commerce Clause to allow the Secretary of Agriculture to assign sugar production quotas based on a
thorough analysis of the complex variants of that market for a particular year. Id. at 616-619. Likewise,
notwithstanding the fact that, as the Government

23
points out, precedent involving the District of Columbia has been used in cases involving Puerto Rico, the
decision in Swain v. Pressley, 430 U.S. 72 (1977), a
case involving the sufficiency under U.S. Const., Art.
I, § 9, cl. 2, of habeas corpus remedies on convictions
rendered by the District’s own court system. Id. at
381-383. Swain does not even seem to belong to the
family of cases applying the doctrine invoked by the
Government. The bottom line is that the record does
not suggest that the difference between geographic regions was considered in the exclusion to exclude
Puerto Ricans from SSI benefits and, while the petitioner invites the Court to adopt this criterion to justify the application of rational basis scrutiny, it utterly fails to identify any geographic differences that
Congress considered in its decision to limit SSI benefits.
D) NO RATIONAL BASIS EXISTS FOR EXCLUDING
PUERTO RICO RESIDENTS FROM SSI BENEFITS

The challenged First Circuit Opinion was the
last great contribution of the outstanding Puerto Rican jurist, the Hon. Juan V. Torruella, who passed
away a few months after the Court’s decision. The
First Circuit’s analysis on how the exclusion of citizens domiciled in Puerto Rico fails to meet rational
basis scrutiny, even under the highly questionable
factors outlined in Califano and Harris is a master
class on this type of constitutional inquiry. See United
States v. Vaello-Madero, 956 F.3d 12, 23-32 (1st Cir.
2020). The aforementioned Opinion demolishes the
economy/tax based arguments invoked in the 1978
and 1980 summary decisions by using irrefutable statistical data of which it took judicial notice and highlighting how indefensible such arguments are in light
of the inclusion of Norther Mariana Islands residents

24
in the SSI program. Indeed, it is a tall order to justify
the exclusion from the program based on the payment
of federal income tax, where that criterion is not applied to those residing in the states or to argue that
the Commonwealth would suffer a disruption of its
economy from payments to be ultimately made directly to needy qualified individuals18. We thus focus
on other important aspects of the inquiry.
It is understandable that the Government
would so vehemently advocate for rational basis scrutiny instead of strict scrutiny, as the latter is impossible to meet in the instant case. Rational basis scrutiny is however not a guaranteed path to victory for
the party defending the constitutionality of any given
classification. That the standard is deferential to the
Government does not mean that it is “toothless”.
Mathews v. Lucas, 427 U. S. 495, 510 (1976). This is
so because ‘the classification must be reasonable, not
arbitrary, and must rest upon some ground of difference having a fair and substantial relation to the object of the legislation, so that all persons similarly circumstanced shall be treated alike”. Royster Guano
Co. v. Virginia, 253 U.S. 412, 415 (1920). It has been
observed that “[t]he search for the link between classification and objective [of the legislation] gives substance to the Equal Protection Clause; it provides
guidance and discipline for the legislature, which is
entitled to know what sorts of laws it can pass; and it
marks the limits of our own authority”. Romer v. Evans, 517 U.S. 620, 632 (1996). As previously noted,
Congress made the purpose of the SSI quite explicit
by announcing that it seeks “to provide supplemental
18

Up until now the Government had not raised this argument
below and now do so in a footnote at page 24 of its brief, without
any effort at a developed argument.

25
security income to individuals who have attained age
65 or are blind or disabled”. 42 U.S.C. § 1381 (emphasis added). How exactly does excluding Puerto Rico
residents from the program achieve the goal of providing supplemental social security income to the elderly,
the blind and the disabled? The petitioner does not
bother to answer this crucial question, so we do it for
said party: said exclusion in no way advances the
stated legislative purpose. Moroever, this exclusion
policy conflicts with this Honorable Court’s holding
that “[c]entral both to the idea of the rule of law and
to our own Constitution's guarantee of equal protection is the principle that government and each of its
parts remain open on impartial terms to all who seek
its assistance”. Romer, 517 U.S. at 633 (emphasis
added). At page 27 of its brief, petitioner argues without much development that the rational basis for including the Northern Mariana Islands in the SSI program while having Puerto Rico remain excluded was
because such inclusion was part of a covenant between the people of that territory and the United
States. We are at a loss to come up with a plausible
connection between negotiations between the United
States and a territorial government and the SSI statutory goal of protecting needy, qualified U.S. citizens.
Aside from its -in our view insufficient- attempt
to justify the Califano/Harris criteria, the Government has chosen to propose the novel notion that
“Congress could rationally conclude that these arrangements promote Puerto Rico’s ability to govern itself”. Petitioner’s Brief at 22. As intimated in the introductory section of the foregoing brief, given the Article IV arguments advanced by the Government in
this very same case as well as in other recent litigation
and, most importantly its concrete actions under

26
PROMESA, this argument comes with a considerable
amount of chutzpah. Specifically, petitioner suggests
that the Commonwealth “imposes its own taxes in lieu
of inapplicable federal taxes, receives the covered-over
proceeds of some federal taxes that do apply there,
and decides for itself how to spend the revenue it receives”. Petitioner’s Brief at 23. This is only true if
Congress repeals PROMESA or at least Sections 201204 thereof. Otherwise, petitioner is talking about a
reality that ceased to exist in 2016 because Congress
willed it so. Likewise, the suggestion that “Puerto
Rico could use the money [from its revenues] to increase benefit levels in the AABD program, the cooperative territorial-federal benefits program that applies in Puerto Rico instead of SSI”19, fails to provide
an iota of data (data that does not exist) suggesting
that, even without the undemocratic limitations imposed by PROMESA, Puerto Rico has the financial capacity to undertake such reforms. Justice Brennan
was correct in observing that rational basis scrutiny
“will not be satisfied by flimsy or implausible justifications for the legislative classification, proffered after the fact by Government attorneys”. United States
R. Ret. Bd. v. Fritz, 449 U.S. 166, 184 (1980) (Brennan,
J., dissenting). Without supporting context, Puerto
Rico’s maligned self-rule cannot be invoked as a rational basis for exclusion from SSI.
Without a rational basis for the wholesale exclusion of Puerto Rico residents from the SSI program
being identified, this Honorable Court has to concur
with the First Circuit’s disposition.

19

Appellants Brief at 23.

27
CONCLUSION
Insofar no rational basis exists -let alone a compelling state interest- for discriminating against hard
working qualified U.S. citizens in relation to SSI benefits, the First Circuit’s Opinion must be affirmed.
Respectfully submitted,
EMIL RODRÍGUEZ ESCUDERO
JORGE MARTÍNEZ LUCIANO
Counsel of Record

ML & RE LAW FIRM
Cobian’s Plaza – Suite 404
1607 Ponce de León Ave.
San Juan, P.R. 00909
jorge@mlrelaw.com
emil@mlrelaw.com
(787) 999-2972

